.




          PROBLEMS WITH CODING             OF
            PHYSICIANS’ SERVICES:
              MEDICARE PART B




.
    OFFICE OF INSPECTOR GENERAL 

    OFFICE OF ANALYSIS AND INSPECTIONS
                                         JANUARY   1989
       PROBLEMS WITH CODING             OF
         PHYSICIAN SERVICES:
           MEDICARE PART B




                  Richard P. Kusserow
                  INSPECTOR   GENERAL




OAI-04-88-00700                         JANUARY   1989
                                    EXECUTIVESUMMARY 

.

    PURPOSE 


    Health servicesand supplies arereported and billed to Medicare by way of a numeric coding 

    system. This inspection was conducted to: 

    (1) determine whether there are significant problems regarding coding of physician office 

         and hospital visits;
    (2) identify and examine reasonsfor coding problems; and
    (3) recommend corrective measures,asappropriate.


    BACKGROUND

    Medicare is a federally funded program providing health care to the aged and disabled. The
    program is administered by the Department of Health and Human Services,Health Care
    Financing Administration (HCFA).

    Medicare is divided into two parts. Part A includes hospital servicesand supplies. Part B in­
    cludes physicians’ servicesand “durable medical equipment” such as wheelchairs. This in­
    spection deals with Part B. Paymentsfor Part B Servicesand supplies are made through
    private insurancecompanies,known as “carriers,” working under contract with HCFA.

    In 1983, HCFA required all carriers to institute the HCFA Common ProceduresCoding Sys­
    tem (HCPCS). The useof HCPCS was intended to bring about uniformity in interpretation
    and reporting of medical servicesand supplies provided to Medicare beneficiaries. Under
    HCPCS, physician servicesarereported asfive-digit codesdefined in the American Medical
    Association’s Current Procedural Terminology (CPT). Some services,such asphysician of­
    fice or hospital visits, are also designatedby a procedure “level” which takesinto considera­
    tion the wide variations in skill, effort, time, responsibility and medical knowledge required
    under different circumstances.

    This inspection examines the issueof uniform coding and factors which influence coding
    choices. It analyzes statistics on the frequency of specific procedurecodesbilled to Medicare
    carriers. As a meansto verify and interpret the statistical findings, interviews were held with
    142 personsknowledgeable of physician billing habits, predominantly at the HCFA regional
    offices and Medicare carriers.

    FINDINGS

    .	    There are wide variations in coding of office and hospital visits under what is intended
          to be a uniform coding system. Problems described here relate to coding of “established
          patient office visits” and “subsequenthospital care” (daily visits to hospitalized
          patients).

          The principal reasonis differences in interpretation of the serviceseachcode represents.
          Differences in interpretation may be attributable to the large number of office and
          hospital visit codes available under CPT and a lack of clear distinction among code level
          descriptions.

          Reimbursement is also a factor, although code selection is intended to be basedsolely
          on the servicesrendered.


RECOMMENDATIONS

The HCFA should:

.         Consult with the American Medical Association (AMA) to reduce the number of codes.

.         Consolidate codesfor payment purposes.

.         Designate codesfor “routine” office and hospital visits.

.         Consult with the AMA on terminology changesand modification of the CPT manual.

.         Educate providers on proper coding.


HCFA COMMENTS

The HCFA recognizes the problems which exist with coding of physician servicesand agrees
with all of the OIG’s recommendationsfor correcting them. A HCFA representativerecently
presentedthe OIG’s findings and recommendations to the AMA’s CPT-4 Editorial Panel at a
meeting in Washington, D.C. Other discussionsbetweenHCFA and the AMA regarding
coding problems have also taken place over the past severalmonths. The HCFA believes
theseactions ‘I... will have a positive effect on resolving the concerns and issues raised in this
audit.”
.,. ,




                                                    TABLE OF CONTENTS

        EXECUTIVE SUMMARY

        INTRODUCTION ........................................................................................................1 


                    Background ...............................................................................................      1

                    Purpose .....................................................................................................   2

                    Methodology ..............................................................................................      3


        FINDINGS

                    There are wide variations in code usage ................................................. 4 

                    Principal reason is differences in interpretation            ................................... 4 

                    Reimbursement is also a factor ............................................................... 7 


        RECOMMENDATIONS

        APPENDICES

                    A. Data sources 

                    B. Carrier billing frequencies 

                    C. 	 Request for HCFA guidance on coding “routine”                                     visits
                    D. HCFA advice on coding routine visits
                                       INTRODUCTION 


BACKGROUND

Medicare is a federally funded program which provides health care to the elderly and disabled.
It is administered by the Department of Health and Human Services,Health Care Financing
Administration (HCFA). Servicescovered under Medicare are divided into two general areas.
The frst, known as “Part A,” includes hospital servicesand supplies. The second,“Part B,” in­
cludes physicians’ servicesand “durable medical equipment” such as wheelchairs. This in­
spection deals with Part B.

Reimbursement through Private Carriers

Paymentsfor servicesor supplies covered under Part B are made through private insurance
companies (“carriers”) under contract with HCFA. Each carrier hasresponsibility for process­
ing claims in a designatedgeographic area. The HCFA provides direction to the carriers on
all payment matters. It is also responsible for assuring that carriers are adhering to program
policies and proceduresgoverning payment.

Procedure Codesfor Billing             _

In the past, physicians and suppliers submitted bills to carriers using narrative descriptions or
numeric codes to identify the servicesthey hadrendered. Many different coding systemswere
used. Little similarity existed among the many methods used to bill Medicare.

In 1983 HCFA required all carriers to adopt the HCFA Common ProceduresCoding System
(HCPCS). The useof HCPCS was intended to bring about uniformity in defining and report­
ing medical services. This uniformity would enable HCFA to analyze Medicare services
nationwide and would provide reliable information for Medicare policy making. Such
analyseswere not possible under the former hodgepodgeof billing methods.

Present Coding System            .,’

Under HCPCS, physician servicesare describedthrough useof the American Medical
Association’s Current Procedural Terminology (CPT). The CPT consistsof a seriesof five-
digit codeseachrepresenting a particular service(procedure). When the procedureis a
physician visit, the extent of the servicerenderedis also designatedby a procedure “level.”
These levels take into consideration the wide variations in skill, effort, time, responsibility and
medical knowledge required under different circumstances.

The following table shows the code and corresponding level designations for “established
patient office visits” (any visit after the first) and “subsequenthospital care” (daily visits in a
hospital after the day of admission). Recentdata obtained from HCFA indicates that thesetwo
servicestogether account for nearly 25 percentof the total number of servicesbilled, and
16 percent of the total payments made under Part B.


                      CPT CODE AND CORRESPONDING LEVEL
                                                 .
        OFFICE                LEVEL                  HOSPITAL

        90030                      Minimal                            N/A
        90040                      Brief                              90240
        90050                      Limited                            90250
        90060                      Intermediate                       90260
        90070                      Extended                           90270
        90080                      Comprehensive                      90280




Reimbursement Amounts

Reimbursement ratesfor the various code levels are set by each carrier for its own area. Car­
riers establish their rates basedon “prevailing chargelocalities,” specific geographic areas
where physicians’ chargesfor servicesare very similar. In most instances,the higher the level
of service billed the higher the reimbursement.

Uniformity Lacking

The HCFA Part B Medicare Annual Data System (BMAD) provides calendar-yeardata by pro­
cedurecode for every procedureprocessedby eachcarrier for the year. Under a uniform
coding system,one would expect to find similar billing patternsfrom carrier to carrier.
Analysis of the 1984 BMAD, however, revealsthat patternsof billings for “establishedpatient
office visits” and “subsequenthospital care” vary greatly. Not even a semblanceof the unifor­
mity sought under HCPCS is evident in the BMAD statistics.


PURPOSE

This inspection examines in detail the lack of uniformity in coding of claims in thesetwo high
volume areas: physician office visits by establishedpatients, and physician visits to hospital­
ized patients.

The inspection has three main objectives:




                                               2

(1) 	 to determine whether there are significant problems regarding coding of office and
       hospital visits;

(2)    to identify and examine reasonsfor coding problems; and

(3)    to recommend corrective measures,as appropriate.
                                      I




METHODOLOGY

Findings reported here are basedon analysis of data contained in the Part B Medicare Annual
Data (BMAD) ProceduresFile for 1984-1986. Other documents and statisticsrelated to
physicians’ coding of medical services,listed in appendix A, provided documentation of the
coding processand the conclusions of prior studies.

To help interpret the statistical findings, 142 personsknowledgeable of physician billing
habits were interviewed. Theseindividuals were: 99 persons(including 9 physicians) from
all 47 Medicare carriers; 15 from HCFA’s central office and 24 from HCFA’s 10 regional of­
fices; 3 from other government offices; and 1 from the American Medical Association.




                                              3

                                            FINDINGS

THERE ARE WIDE VARIATIONS IN CODE USAGE

An analysis of the 1985 and 1986 (latest available) BMAD statisticsreveals that 1984 varia­
tions in bilfing patterns among carriers continue. The following charts illustrate someof these
variations.

Figure A shows, for example, that for code 90060 one carrier had 86 percent of its total bill­
ings for “establishedpatient office visits” at this level. Another hadjust 9 percent. The
averagepercentageof this code reported by all carriers was approximately 31 percent.

Information on patternsof billings at all carriers is contained in appendix B of this report.
                                 Bills to Carriers for
            F@U~    A Established Patient Office Visits (1986)
                     Forcont of Total (Froquonc~)




                       90030       Qoo40      WOW            QoO60    00070       90080
                                               HCPCS Code
                           -    Low Curlu       =       High Curlor   -   Awag.

PRINCIPAL REASON IS DIFFERENCES IN INTERPRETATION

Both Group Health Insurance (GHI) and Empire Blue Shield pay claims for portions of New
York City. The city is consideredone prevailing charge locality for purposesof setting reim­
bursementrates. However, while GHI has 85 percentof its billings for subsequenthospital
care at the intermediate level (90260), billings at Empire are more evenly distributed, with
only 34 percent at the intermediate level. Similarly, Blue Shield of Montana and Equicore of
Wyoming both servepredominantly rural populations. Blue Shield, however, has53 percent
of its hospital visits billed at the “brief’ level (90240), while Equicore hasonly 10 percent at




                                                    4
this level. These and similar comparisons show that differences in billing patternscannot be
attributed to differences in the geographic location of Medicare patients.

The nature of the coding problem was examined in interviews with HCFA and carrier staff.
These interviews revealed that the principal reasonfor variations in billing patterns among car­
riers is the differences in interpretation of codes by both carriers and providers. (Providers of
Medicare Part B servicesare physicians and suppliers of medical services.) When carriers
first converted to HCPCS, HCFA permitted them considerableflexibility in translating the
codes under their old systemsinto the new CPT codes. This flexibility led, for example, to
some carriers converting an old 9004 (“routine fJllow-up office visit”) to the CPT code 90040
while others converted this code to CPT code 90050.
                                        Bills to Carriers for 

           Figure   B             Subsequent Hospital Care (1986) 

                    Percent       of Total (Freauencv)




                                           90260             90260          90270         90280
                                                    HCPCS Code
                              m      Low Carrier         m   High Carrier     -A-   Average

No National Policy on Coding “‘Routine” Visits

Variations in how carriers converted their old coding systemsinto the new are most evident in
the differences in what CPT codesthey choseto designatethe “routine” level for office and
hospital visits. “Routine” is defined as the service a physician would normally be expectedto
render most often.

These differences for routine visits were noted severalyears ago by HCFA’s Region VI office
in Dallas. Regional staff requestedclarification from the HCFA central office (appendix C).
The HCFA’s response(appendix D) statesthat the 90050 and 90250 (limited) levels of office
and hospital visits are the “most correct” codesto designateroutine services. The responsefur­
ther statesthat it is possible that some carriers, basedon reimbursement considerations,may
have designatedboth the “brief’ and “limited” levels asroutine. While this is not the preferred
method, HCFA apparently considersit acceptable. According to HCFA staff, levels higher
than the Limited level would not be correct. With the exception of Dallas, HCFA hasnot com­
municated this position to any of its other nine regional offrces.

As illustrated by the following charts,carriers continue to consider a number of different
codes,or combinations of codes,asroutine. Only about half of the carriers indicated they
would use the 90050 or 90250 code which HCFA considersto be “most correct”:


                      Carrier Respondent Opinions
                                Figure C


                   ‘Routlne’ Offko Welt*           ““““““““““the=HoaplW Vklt*
                              %r                          Z0




Lack of uniformity in the coding of routine servicescausesproviders to lose confidence in
both the carriers and the Medicare program. The absenceof a national policy on the ap­
propriate code to designatethe routine level also increasescarriers’ difficulties in dealing with
individual providers on coding problems.

Too Many Co&s Are Available

Many carrier staff statethat in their opinion physicians are often confused by the large number
of CPT codesavailable to describeoffice and hospital visits (six and five respectively). Addi­
tionally, many respondentsperceive a lack of meaningful distinction among the various CFT
coding levels, particularly the “brief’ and “limited” levels. This appearsto be a major factor
in accounting for differences in interpretation of “routine” and other visit codes.

Under most of the carriers’ previous coding systems,there were fewer codesthan under the
presentCPT system. Some of theseformer systemshad codestermed “routine” for office and
hospital visits. Carrier respondentsindicate that many physicians preferred to usethesecodes
almost exclusively rather than having to chosethe “correct” code from among several. Many
believe that physicians still prefer this manner of billing.


                                                 6

In consideration of thesepoints, respondentsrepresenting70 percent of the Medicare carriers
feel that the number of codesfor office and hospital visits should be reduced.

REIMBURSEMENT          IS ALSO A FACTOR

While differences in interpretation of codesby carriers and providers accountfor most of the
variations in coding of office and hospital visits, other factors also contribute.

Many carrier staff indicate that a number of physicians may seekto maximize reimbursement
by billing a higher level code than appropriate for the servicerendered. In numerouscases,
this was substantiatedby carriers’ findings in postpayment review of physicians’ claims.
Several carriers suggestedthat this problem may be accelerating as Congressimposes
measures,such as fee freezes,to control spiraling Medicare outlays.

Carriers also point out that the coding selection processwhich is usedin the physician’s office
frequently includes consideration of the amount the carrier will reimburse for a billed service.
Although code selection should be basedsolely on the type of servicerendered,those who
prepare the bills often match the physician’s normal charge for an office or hospital visit to the
code which pays the sameamount, and bill accordingly.

The attitude expressedby severalcarrier representatives,including one medical director, sup-
plied another example of the influence of reimbursement factors on coding. These persons
noted that if physicians consistently bill just one code for establishedpatient office visits and
one for subsequenthospital care, over time the reimbursement “highs and lows will balance
out.”

One of the larger carriers explained that they urge physicians to usethe appropriate codes,but
they routinely acceptthe intermediate level code (90260) for daily hospital visits throughout
the hospital stay. Carrier representativesacknowledge that the patient should be improving
the closer he comes to the day of discharge. Thus, he should not require the more extensive
servicesrepresentedby code 90260 at the end of his stay. However, the carrier reasonsthat
reimbursement is about the sameusing code 90260 for each day as it would be using the
higher level codes at the beginning of the stay and the lower codestoward the end.

Other Factors Coirtribute to the Problem

Still other factors which could lead to variations in coding were mentioned by carrier person­
nel:

.	    Physicians may be reluctant to use the current CPT codesdescribing “brief’ or “limited”
      visits out of concern that theseterms imply inferior service.

.	    Many specialists believe they should bill the higher level codesbecausethey are
      specialists, regardlessof the actual servicerendered.



                                                 7

.	    Some physicians, as well as somecarrier staff, believe that the more time spent with the
      patient the higher the code that should be used. (The CRT already takes into
      consideration the time each service should take.)

.	    In the CRT booklet the definitions of code levels are in a different section than the codes
      themselves. Associating the two is somewhatinconvenient.

HCFA and the Congress Consider Solutions

Several activities are currently underway to addressspecific coding problems and their under-
lying causes.

In order to deal with providers who may be coding servicesinappropriately, HCFA has man-
dated that all carriers useprepayment screensfor certain procedurecodes. These screens
detect instancesof physicians billing for more than a specified number of a single procedure
for one patient over a given period of time. When thesecasesare identified by the screening
process,carriers must review all claims for medical necessitybefore making payment.

However, there are problems with this approach. The samescreensapply to all carriers equal­
ly. They assumea uniformity in application and definition of codeswhich doesnot exist. As
an example, if HCFA required carriers to examine all claims for servicecode 90260 when
over six per month are submitted, somecarriers would have to examine most of theseclaims.
This would be the casefor carriers which consider 90260 the appropriate code for a “routine”
hospital visit.

The Omnibus Budget Reconciliation Act of 1986 (OBRA) requires that the Secretaryof HHS,
by no later than July 1, 1989, ” ...group the procedurecodescontained in any HCFA Common
ProcedureCoding System for payment purposesto minimize inappropriate increasesin the in-
tensity or volume of servicesprovided as a result of coding distinctions which do not reflect
substantial differences in the servicesrendered.” If this requirement is applied to “subsequent
hospital care” and “establishedpatient office visits” much of the coding problem will be
resolved. The HCFA, which is acting for the Secretaryin this matter, has not yet decided
whether theseserviceswill be included in the code grouping OBRA requires.




                                                R
                                 RECOMMENDATIONS

Consult with AMA to Reduce Number of Codes

Findings:   Carriers report that physicians are sometimesconfused by the number of codes
available under CPT for of&e and hospital visits. Carrier staff also perceive a lack of mean­
ingful distinction among the various coding levels. Respondentsrepresenting70 percent of all
carriers believe fewer visit codesare necessary.Physicians may prefer to usejust one code
rather than chosethe “correct” code from among several. Finally, some carriers acceptbill­
ings from physicians who use only one code even when it is apparentthat different level ser­
vices were rendered. They rationalize that, for reimbursement purposes,“the highs and lows
will balance out.”

Recommendation:   The HCFA should consult with the AMA to reduce the number of codes
available under CPT for “establishedpatient office visits” and “subsequenthospital care.”

Impact: This would bring the coding system more in line with actual billing practices. It
would also reduce the incidence of inappropriate coding, and its accompanying effect on reim­
bursement, by providing fewer choices and greaterdistinction betweencode levels.

HCFA Comments; The HCFA agreeswith this recommendation and has beenworking on this
problem for some time. Discussions focused on reducing the number of codeshaverecently
taken place between HCFA and the AMA.


Consolidate Codesfor Reimbursement Purposes

Findings:  Bills are often preparedin physicians’ offices by matching the physician’s charge
with the carrier’s reimbursement schedule,rather than with the appropriate code for the ser­
vice actually rendered. Carriers have noted instancesof physicians using a higher level code
than appropriate in order to increasereimbursement. Some carriers may be accepting a higher
level of coding than appropriate for “routine” services. The HCFA is required by OBRA to
group (combine) procedure codesfor payment purposesin situations.where distinctions be-
tween levels are unclear.

Recommendation:   Concurrent with seeking to reduce the number of codesavailable, HCFA
should pursue consolidation of visit codesfor payment purposes.

Impact: This would reduce the impact that inappropriate coding hason Medicare outlays and
fulfill the intent of OBRA.

HCFA Comments: The HCFA agreeswith this recommendation. A letter was recently sent
from HCFA to the AMA outlining potential coding consolidations.



                                               9

Define “routine” Level

Findings:  There are large variations in usageof CPT codesfor “establishedpatient office
visits” and “subsequenthospital care.” These variations are most evident where the “routine”
level of service is being billed under a number of different codes. The HCFA hasdesignated
the codesit believes “most correct” for routine servicesbut hasnot promulgated this informa­
tion nationally.

Recommendation:     The HCFA should inform all carriers and providers of the codesit con­
siders “most correct” for routine office and hospital visits and then assureits instructions are
applied consistently.

Impact: Consistency of interpretation from carrier to carrier will improve the credibility of
the coding system. Consistency will also strengthencarriers’ positions in dealing with coding
problems with individual providers. Further, it will allow HCFA to better usepayment data by
visit codesfor trend analysis and policy making in such areasas fee schedules.

HCFA Comments: The HCFA agreeswith this recommendation. A HCFA representative
recently met with an AMA Ad Hoc Committee on Visits and Levels of Service. The meeting
focused on the need for uniform understandingsby Medicare carriers and the physician com­
munity regarding what codesdescribe “routine” visits and consultations, as well as how codes
should be used by physicians in the various specialty fields.

Consult with AMA on Other Changes

Findings:   Carriers report that some physicians may be reluctant to code their claims at the
CPT levels termed “minimal,” “brief’ and “limited” due to the negative implications of these
terms. Respondentsalso point out that the presentformat of the CPT book makesit incon­
venient to associatethe description of the levdl of servicewith the corresponding code.

Recommendation:    The HCFA should discusswith AMA changing the terminology usedto
describe servicesso as to neutralize its effect on coding choice. Easier associationof code
level with the codes, at least for higher volume areassuchasphysician visits, should also be
discussedwith AMA.

Impact: Thesechangeswould eliminate two factors which appearto inappropriately bias the
code-selectionprocess.

HCFA Comments: The HCFA agreeswith the recommendation. At the recent meeting be-
tween a HCFA representativeand the AMA Ad Hoc Committee on Visits and Levels of Ser­
vice, the need to avoid terminology that hasnegative connotations in the narrative descriptions
of certain codeswas discussed.




                                               rn
Educate Providers on Proper Coding

Findings: Carriers report that physician specialistsoften feel they should bill the higher level
CPT codes simply becausethey are specialists. Some physicians believe the more time they
spendwith a patient the higher the code level they should bill. The current CFT system al­
ready takes into consideration the time and level of skill neededto perform various levels of
services.These should not be factored in again by the physician.

Recommend&ion:     The HCFA, along with the carriers, should better inform physicians of
HCFA’s interpretation of proper use of CPT codes.

Impact: Better physician understanding of the CPT system will help to reduce inappropriate
coding of services.

HCFA Comments: The HCFA agreeswith the recommendation. This concern was also dis­
cussedat the recent meeting between a HCFA representativeand the AMA Ad Hoc Committee
on Visits and Levels of Service.




                                               11 

-.   li   ‘.   :   .




                                                           APPENDIX A
                                                           Data Sources

                       Part B Medicare Annual Data (BMAD), ProceduresFile, 1984,1985, and 1986

                       Carrier Annual Management Reports asSubmitted to HCFA

                       AMA’s Physicians’ Current Procedural Terminology
                       (4th edition), 1984-1988

                       Physician Payment Review Commission’s I988 Report.
                       to Congress

                       HCFA Common ProceduresCoding System, Conversion/Implementation Manual and User
                       Guide

                       Office of Technology Assessmentreport: Paymentfor Physician Services (1986)

                       Various HCFA/Carrier policy memorandaand guidelines
             APPENDIX B

    Carrier Billing Frequencies for
       Office and Hospital Visits
(Computed from 1986 BMAD, ProceduresFile)




                    B

     .




..

                                                                    16        .
                                                                    z
                                                                    12




                                                                . 	 tl        i
                                                                    g
                                                                    44                .
     oo780         eLLuI:sMIzLD-nmcmc~ 

     00801         ULUO SNIELO-NY             cut&m 

     CcaOf         CIwI#        m&xl    sun-0         CNVC, 

     00620         BLUE       SWIEAB-NO,SD 

         ooaas     8LUE       SUM-•n 





         OoYsr     w.         sLI.-uI 

         OC¶TY   . r(JERTO         RICO--Qs 

         01020     ncndn-nu
         g;Ozg     =NET


         ol270     mTNn-(Iv                                             10
         01360     nmnn-un                       .                      16        :
         OUT0      RIITNWK                                              41            .
         01310     ILTNWR
         a2050     TRnNsnn~IuCn-cn                                      ous               :




                    TRnlJELERS-RN 

                    TRnlMLRS-ns 

                    rmuaas-un 

                    OLN.    nn.    urc.-no 

                    ?mJOENrxAL-oR 

                    l tUOCNTIly-NJ              - ­
                    ~SC~C~WIL-NC                  .
                    NRTZ OWJI DC OH
                    rmrx oNY1 oc YU
                    euJc SW Ew-nc

                                                                .        18
                                                                        44

                                                                         01
                                                                      .




                                        -'    .* .
    -	                                      CnRuCR
                             mmB=       . .
                   ..      ~oos10       BLUR MELD-RL                                  .
               . .           oos2u      BLUE SHIEUI-nR
                i.. .'i :3 W            BLUE SnIELo-flR                          CLM
                :.‘. ;.-;I   aoS42      BLUE snxao-cn                            CRORTWCRNS
                 .. ..‘> - oosf4’BLuLsnxan-co
                      :.   .
                . ‘-2 7.: oos70        ‘BLUE    sbtxaa-m                         coo
                           moos80       BLUE SHIM-m                              COQ
                ,. -_.       oos90      BLUE snfao-FL
                             oob21      IlEnLm      cnR(I                   SER.-IL
              . : ‘-. .‘- ‘F”u4         BLUL    snxM-x:w
                                  -0ou0               BLuLsnxaa-1n                        .
                                    0064s             mu0 SnxaD-NC
                                  . OObSO             BLUE SWIELD-KS
                         .        .* oo6bo            BLUO snI~'D-Kv
                                     oobw            ,BLuc     SUELD-no
                                                     2.                                       B
         .	    .         --.:         oo700             BLuf   snxao-nn
                                      00710             BLUE   Snfao-KI
                . ; :.:               00720             UUZ    SHIM-RN
-                 . 8                 00740             BLUL   snxtls-no         <Km
                                      007s;             BLUE   SUELO-nr
                .            .-
                                      00780          'BLUE    SnrhD-nn      <m.un
                                      00801            BLUL   SHXRO-KV      (YLSTERn,
                                      00803            LnPtRL    BLUR SKIIIEto    CKVU
                     -	           .   00920
                                      008bS           BLUL
                                                       BLUE SHIUO-NO&U
                                                              SIURO--CR
                         . ’ ‘-	 00870                  BLIE  SHXELD-RI
                                 0088Q                  BCUL Sn1aD--JC
                                 00¶00                  BLUC SnXELO-TX
                                 oa¶lO                  RuJL  SKIELD-ur
                   -..:          OoYao               .'un nn.      SER.
                   ..,
                      .. 	       oo¶sx
                                 OO¶TJ
                                      OlOZU
                                                      ?lw.
                                                      ?UCm
                                                              SER.441
                                                      RETWR-fIK
                                                                      RICO-BS                                              is
                     .
                                                                                                                           z . .
                                                                                                                           --
                    *.
                                      ol2¶0
                                      olabo
                                      OIltO
                                                      nETmu
                                                      nLrm-Hn
                                                      RLTNR-9K
                                                                                                                          .g       . .-
                                                                                                                                     .i ... .
                          I.’         01380
                                      02OSO
                                                      RtTWO-OR
                                                      tRANSWERICR-CR                                                       8;      .-m.
                                                                                                                                  -‘.
                                                                                                                           02        ‘r:
                                                                                                                           ig ._..._* .
                                                                                                                           04”         .
                                      10240           TRfWRLERS-IW
                                      10250           ~AUELERS-!‘I$                                                       g            . ..                      .i
                                      10430           tRnuaas4m                                                                               :        --
                                      11260           OLN.   (m.   UFC.-KO                                                              I-        ..
                                                                                                                          3       ;-      .
                                      l3110           l RUORKTIRL-OR                                                                    -t.
                                                                                                                                                        Jf
                                      ma10            ?RuOcNTxh-w                                                         OS           -,.                   _
                                      la340           l uOlmTXnL-NC
                                      L4330           owr --NY                                                            E
                                      fbsba           r4nrromxor:          084                                            OS           _               .-.
                                       l~sld~NnrrrxoNutoe                  YU
                                      tuoo          BLUE        Snxan-nL                                                  z
                                                                                                                          01 *’
                                                                                                                           02
                                                                                                                           10
                                                                                                                          00’
                                                                                                          $26.17   m.61




                                                                                                  .


                                                                                                      .
       APPENDIX C

Request for HCFA Guidance on
   Coding “‘Routine” visits




             C

                                                                                                                                .
                                                                                                                                         ..
                                                                                                                                                 .-
                                                                                                                                                             l    ‘4
                                                                                                                                                                                                        Q
                                                                                                                                    C.

                                                                                                                                                                       ,                                .                                                                                                    .

                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         .
                                                                                                               .                                                                                                                                                                                                                                                                 .    .
                                                                                                                                                       .                   l               .                                                                                                                                                                                                                                                                                                         _                ..
                                                                                                                       .                                                                                                                       .              .                                                                                                                                                                         .
                                                                                                                                                                                                                                                                                                                                                                                                                                            -.
                                                                                                                                                                                                                                                                                                                                                                                                                                                              *.
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                .
                 .                 .
                                   ..
                                               ‘.
                                               _       c
                                                                             .                                                           .                                     .                                                                   -                                                                                                                                                             l .’              l     -
                                                                                                                                                                                                                                                                                                                                                                                                                                                              .

                                                                                                                                                                                                                  ;                                                                                                                                                                                                                                                    .
                      .                                                                                            :                -                                              -                                                                                                                                                                                         .                                    .
                                                                                                                                                                                                                                                                                                                                                                         .                                             .
                                                                                                                                                                                                                                              .. .
                                                                                                                                                                                                            -y                                                             R-ifct                                to:                    DPOIRbcf&.                                                                         .                                           .              :          -.-7-y

                                                                                                                                                                                                                                                                                                                                                                                                                                                              .-
      . .    .       .’        .    .        .*.*”         *       .             *                                                                                                                                                                                                                                                                                                                                                                                                                            .       .
                                                                                                                                                                                                                                                                                                                                           UR-Pp                 -                                                                                                                                                             -.        :‘
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              .
                                                                                                                                                                                                                                                                                                                                                                                                             -                         . .                                 .                 -
                                                                                                                                                                                                                                                                                                                                                .                        ..
      l                    i       Health                          Care                  Pinmcin$                                                Addhtrath                                                                                                                     .                                                                                                          .                                                          ‘.
                                                                                                                                                                                                                                                     .        .
                                                                                                                                                                                                                                                                                         .
                                                                                                                                                                                                                                                                                                                                                                                                                                                 .                .”                  -5:.                    ‘.Wi*‘.                .            -

          . :IRqion                                                    V’I.~&ks&t+. .’ . _ . ;-. : .. . ..                                                                                                                  - i
                                                                                                                                                                                                                                                                                    .            -                                                                                                                                                                                                       --                                  _.
                                                                                                                                                                                                                                                                               .                                                                                                                   ;:              .                                      .            .       . ..
                                                                                                                                                                                                                                                                           .            .        .                     .               -              .      .                                                                           .           --                                                                              .. .
                               .-                                                                                                                                                                                                                                                                                                                                                    .                  -
      b
                                                     .‘..-.;                         .               .                          i .                                                                                   . .    ..                               .*                             .
                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ..“..                                                             -
             “.: ;tHCPCS  . .. . kplemcntation                a@$aymcrk                                                                                                                                                     U+kation
                                                                                                                                                                                                                                Review for Upcodiig
                                              . - . -t’.                                                                                                                                                                       . -- :
                - :*. . .-.,:.;..
                           . ..*...?..:. . :‘...’-
                                      . .1.            :** - -:-. . ... ::
                                           . .. .*.-; ...$.-                                                                                                                                                :. ;. . . . . . ?: ‘C.     .
      .              ‘. -tip                                   NaAon,                                              &&-,                                                            l* .                      .:                           r                   :                    *,                .
      .          .             hmof                                         Heal&                              St&&-&d                                                                     Qua&                         ’         -                  :-.‘.’                -                                 ‘-.:--                                              -                   .. . .                                                      ...                            .’
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  .
      .                   . p...;                   -
                                                                          ...-
                                                                            . .                  *          *
                                                                                                             l .-L
                                                                                                                       .       -,,
                                                                                                                                          . ..             .,
                                                                                                                                                                                       . . - ..                                                                                                                            - j
                                                                                                                                                                                                                                                                                                                                                                                          >.                .-                 *                 .‘i                                                                             . -.*’
                                                 .. .                                                                                                                                                                       _.        .       . - :. .             .                                                         .       . .                                                                                                    :                 . .                   -...                                       - i;..
            .a
                 ;
                              ,‘-i             .- .*.,
                                             .. . .
                                                  :
                                                                0. :’
                                                                 .
                                                               .- .
                                                                           .I.       :      .’
                                                                                                     .. . .
                                                                                                         -.;.,f’
                                                                                                                         . ..    .-*-.*.
                                                                                                                            -;:y,.
                                                                                                                                      * : .- e-.­
                                                                                                                                                      . .--
                                                                                                                                                        . .
                                                                                                                                                                                        - a.
                                                                                                                                                                                                                             :                                                          ..               .                                  .                        .               :.:-..                                . .                   ..*


       .  -  ‘&r-to        thi hplem&aiiob          air *HCPC&     we  look&      bn   codc;‘SOtiS  (&r&e    follow-          ..-:        : *:,:I;
    .          offh    limit) and 9024 butinc        hospital visit) as thi codes for officc.and hospital vl& ‘-.                      _ .y...
     . . seMcu we wouid normally expect a physician tu provide most of the tima If, in :’ “. .,;,. :.
             . reviewing a physi+n         *oughipostpayment          utilization review,: W; found a phyJidan -_ . .                        .-:_
; - . . who was biIhg the Medicare. program for a substantially ku cr number of higkr .
               ievd service (e.g., 9005) than the routine mice                     b.,     9CO4f , we considered the             * : -5’ ‘:. -’
               phydciads practkt’ as being 8 Potential %pcodhqn situation. However, with the .                                            .
          . implementation of HCPCS, we &c now uncertain u to what the routine office and                                                      ‘..
              ~hospital visit codes are.. (For example: Would the-routine office visit code-now
            ’ 	 (under’ HCE!CS bi 90040, 90050, or wouhi it depend on what the CRIB to HCPCS
                code.priciqg    conversion    was? If the latter, what would be considered- ihe routhe                                             ,
                cock for-an offke visit if the CRYS. 9004 charge data wasascd to price both-the                                    .* . ..- . *
          -.’ 30040-ancf’900~0 HCFCS co&s?) -                *.- -.‘-    .. i .‘,. -..t::. ::..‘- : -‘.;z - .J.-. . :y:..:     : -.’ o . ’ :., ./
 .t      ‘.“.,e            .. . .    .. .. - . .      . .. .                                                                                                                                                _-       -                                   ..                                                                          ..-..
 ‘.              ..’ .‘s&-      ‘;he &&;m&~*&                                                                                                                    &l*k&S,                                          auf &ti~                                             a                &                    w&fs’                                  ir;’ &                   r&i                                           b                                  * .:‘.l                                                               . ‘.
              . . been
                   and
                         thqt H&CS codes 90040 and 90240 are to be considered the routine office visit
                       hospftaL+islt  codes,               for          consideration. We have taken this    ..: ’
                                                                                                                   1-
                                                                                                                     --.
                                                                                                                           -.
                                                                                                                           -
            .                                respec%ivcIy,     up&ding
               * 	 position because .iF1,some cases allowingaphysidan     who  wiFmsing:9004/?024  h  the::.        .    - *
                   past as his routine cdd&.tp usi’ 9OOSOl9OZSO    now under HCXS witl msuftin a higher - - - :” -           -
                     . - Medic&e allowan~~;“E&insance;~          .wiii ii&w if. fhe carrier used 9004 to price                                                                                                                                                                                                                                                                                                                                                    :.-!z L =’ .
      .	                 90040 and. 9005 6     prlci ‘90050..  However,.‘we     have recentlye s&en 44cdlcat~              to                l                                                                                                                                                                                                                                                                                                                          2. Fw .
                         newtlctteti that Prudenthi    and. General American ‘Life have sent out to th&                                                                                                                                                                                                                                                                                                                                                                       4
                     * * physician                                           that they ate considering 90050 and 902SG-as. . -. -.T..
                                                                           cammt&tks                                                               tit&h                               indkatt
                                    the routine codes. ‘(Copies of these ncwskttcrt   arc attxhcd    for your reference.) Wc.: . - ._..
                                    arc sure that .Prudcntiaf and.Geneal American Life. took their positions based on‘the . . ‘.
                                    Cm-4 d&&ion        of Timltcd lcveiof service? which does seem to.support the uic of            me : *-.-
                                    90050 and 9025Oxs.rout& service      cadet,
                                                                     . . :.       . ;     -.
                                                                                         . .  ’ :. .            . .    .
                                                  .. .       .. w                                                              . m
                                    We would a&eciate”keivinn,        your comments iis to which HCPCS codes ;houid be
                                    considered the routfne codes for postpayment upcoding review! ou~oses. TVc plan to             .-
                 .                  hold a utilization review work group meeting for OUf qZ?rkrS        lh Lhc near future and
                                    therefore would appreciate receiving your responseby $ay 15, 1%?5J              ..          ..
                          L                                                                                                _-.                        .-                               .                                                                                                                                                                                                                                                                               -
                                    u wc CM p&idc                                                                          vou with anv additional information on this matter, please contact
                                        John Delaney at. F@ 7294441:                                                                                                                                                                                                                                                                                                         .-      .                                                                                                           .
                                                     .;-‘.           . -                                                                                                                                                                                 :                                                                                                                                                                                                      .. - .
                                                              . .                                                                                                                                                                                                                                                                .                  ..                         . .                                                                                                                                         .
                                                   :                      -.                                                                                                                                                                                                                                                                                                    -... .-
                                                * .        .”     ..                                                                                                                                                                                                                                                                                                                                                                                          .. .
            .                                                           .                                                                                                                          .
                                                 .. .:                                                                                                                                                             hL J. Christenberry                                                                                                                                                                      .-                                                                                                                 ...
                                                                                                                                                                           .                   :                 * Pronram Erector                                                                                                                                                             *
                                                                                                                                                                                                       ..
                 .
                                         .                                                                                                                 . . .. . .                                            - PO&~ and.
                                                                                           :.                                                                                                                             .
                                                               .                                                                                                                                                                                                                                                                                                                                                                                                       ..
                                                                                                                                                                                                            .-                    -                                                                                                                                                                                                                                                  .w . ..                                        _-
           APPENDIX D 

HCFA Advice on Coding Routine Visits 





                  D

                                                                                                                                 .
                                                                                                                              Hdrh   cafe
                                                                                                                 . .          laflcing~~
                          DEPARTkENT,--O&&IMLTH a HUMAN. SERVIC=.




                                                                                                                                                       .




                                                                                                                                                              .   ._
                                                                                                                                                            .
                                                                                        *.:   .      ..      .         ‘. .                   -. .*        ..

               . . . .. . Your request ‘io HSQB inquihing                                                    should bc considcrcd tk krtinc                .. : .
              .   ._-
      ‘-*. . . ... -. .... codes for post payment. upcoding review purposes has been rcfcrred to this ,office.
       ;. ‘.. ; .*- : This response. w coodnatcd with the Bureau of Eligibility, . Rumburscmyt
  ..-.z5.                                                                                                                          .      .        and .(._ -
                                     Coverage (BERC).                   .         .          ’                                         .
  . *.--. .I..*f *. . .
 :..                                                  .                    .                            . . . . z                . . 1. . . . .      :
         :-           .
  : :-                             . Ai you know, the& curr&itiy is nit uniform national translation table for cartiers to                                     - ‘..
    . -*                              follow in converting formerly used visit codes to HCPCS Also, as you +ve pointed
         : - .. .                     out, the definitions of the Icvels of services in the American Medical Association% _. : ._
        i . ..__         -.    .
             . r;-_-..:*,... Current Procedurai Terminology (CPT) could lead to a concfusion that CPTIHCPCS .. . ._
     -:.    .     .
                          .. . codes 90050 and 90250 represent the routine follow-up visit services, rather than codes
                              . a- 90040 and 90240. It seems to us, therefore, that which HCPCS visit codes arc for the                                        .
    a     _.         -0               routine scrViccs dcpcnds primarily on what a carrier% Charge data convcrsh was.
   -. ,. . ., . Conversely, whcthcr it used the appropriate charge data in cstabkhing the.rcasonablc
    .:.                 . .
 i -c . . . : .; .. charge seas                              for the HCPCS visit codes dcpcnds on which of them lt, and the . .­
‘f’l_-
  q.‘;   l    .‘.

                   .- .‘... phyrsiciaruinitstetvicearea,contidertobetheonesfortheroutine~~
                      .


                                              .                      ._             . .         . . . . ..
                                                                                                                                                -__         .
   :.           :- : ;...‘outlined.bcIo~, arc some of th~~al&na&&                                carriers may have followed k this rigard,
    -.            ,:.. .:.. .‘. ..and our ,oommcnts: . . ... . ,*. .                                                                                           ..

  .:                                                                                   .    *-.         ;  . . .    .       :        ... .  .  1:::.   1. 

 .-:... ‘-: . .:                                              ..     ;     -,..                                  .

                   :*      .    ..
                                ..
                   .-. .:.i’       ,-
                                       1. ‘If a Qtti&            ‘Age data &nvksion k& from 1964 CRVS codes 9Og4/9024 to
                      .
                          .
                            -
                                      .     ’ HCPCS      codes   9OOa/90240, then the changes in the rcf+tive frequency of seqviccs                               .
                      .
                  ;a. .’ f..t.                reported     under   the  iattcr  codes   are as   you    have     indicated,   the   appropriate   basis
                                        . ~~.fo&kntifjfing possible %pCddi& SituatiOnS.                   h this instance, it akosccms to us
                  ....                        that  charge    data   previously  coilcotcd     under    1964    CRVS cod? 9003 (brief follow-up
                                         . 	 office visit) would be used to establish the reasonable charge “ccns for HCPCS ..
                                              code 90030 (minimal service).                        : i.        :...     .             . , -
                   ..
                                        2 	 If B car&r has identified HCPCS codes 90050/9OUO as the routine visit services,
                                              then the reasonable charges screens for these codes should have been based on
                                               data from charges previously made by physicians under 1964 CRVS codes
                                               9004/9024. As you have pointed out, there would otherwise bc an unwarranted
                                               escalation in the charges allowed for routine visits. Consistent with the above, .
                                               we think &at in this alternative, the charge data for 1964 CRVS code 9003 (brief
                                               follow-up’ visit) should be used to establish the reasonable charge screens for
                                            . HCPCS code 90040 (brief scrvice) and possible also for HCPCS code 90030
                                              .(mi-$m& service). In the latter event, HCPCS code 90040 should be announcedto
                                                     .
                                              I,         .

                                           .
                              :
            . .:-
.

       . .. -,r. . _           pfty&&ns   as being equivalent to !96(! CRVS code 9003, with the ~ectatiar            that .                                                                                                                                                                                                                                                                                                                .

         . .. .-. ‘. 1..    :’ lower  charges   will be made   for  code  90030.    Alternatively,  the lllsttuctl -0ns in 

             .. ...
           Medicare  tarriers    Manual section  5205  (Charges  for  Rare  or Unusual   Procufures)

.I *                      . should be followed in cstabiishing a lower reasonable charge sqecn for HCPCS .                                                                                                                                                                                                                                                                                                                                       -

     : -I.&:.            . . code 90030. Fur&r, we would cxpcct that @uugc dat+.for the 1964CRVScodc~ 

           . .       :.,. . 9005, ‘9006, 9007, 9025, and 9027, etc, would be used TV establish the reasonable. 

   . .       -.:.
         . barge scrtpens for . the HCPCS codes for more uctcn$c follow-up visits.. . . ,
      .: .i ,.; ..                                                                             . -
                              . .                                   --     .. 
     .:     - M
                *:-.) .* .                                                                                                                        .                                                                                                                                                                                                                                                                               .       9



                       . 
 .. .-                                               :3;        If a &iv                           has used charge data for 1964 CRVS codes 9004/9024 to price semi&s   ;.                                                                                                                                                                                                                                      l

                         :                      .:.                       .

       .-

       *.. f..
                             :
                                      under: the 90040 and 90050/90240 and 90250 HCPCS codes it has, in cffcct,
                                         . _. . ,’               ?               .


         .,- :. -:_                   idcnti&d        a set of two HCPCS office visit codes and a set of two HCPCShospital *
                 .:y. . .            -visit   codes,    with each set d?cribiig a single, i.e., routine service. In suds a case 

          . 
- *....,.,:. .’
                                      the    relative    frequency of scrviccs under these sets of codes should be raed to . .: 

         . .- . .,‘.     ..
 .. . li idcnq possible %pcoding” situations.                 f . ‘;’     .           . . _ : -.          .

 -.                                    .                                                    -.     . . . ....          .. I* - ..: _.;--

                     .. . :.‘. .                  .    ..            .

                                                                          .                               _ .’
 I          .
              . . . 
 *. ‘thinks We prcfh &at the carriers use the second altema~tivc because &r medical QxlSultant I--- . 

                                              .-_ 



                                         this may be most “corrc& translation, Also,.wc cmphasizc that it is                       . - --. 
                                                                                                                                                                                                                                     important

        -	                     ’ for eacfi carrier to make sure through iU professiorkl rciations activitics/ncwsktcrs

                                         .

                                                                                                                                                                                                                                                                                                                                                                                                                                      .         .I



       .
                                 that physicians in its service arca tiw what coding and charge data conversionswcrc
                                                            .
                                                                                                                                                                                                                                                                                                                                                      .        -        . .

     . . ‘.. ‘1. . made; and which HCPCS cod& should be used to describe what’wer6 miously                                                                                                                                                                                                                                                                                                                              -

                                                                                                                                                                                                                                                                                                                                                                                                                             .
                                                                                                                                                                                                                                                                                                                                                                                                                                  .       . .

                                                                                                                                                                                                                                                                                                                                                                                                                                           .

-                                                                                                                . -

             i... .. 
           called “brief” and routine etc., visits.
                                                                 . .
                                       ..       .        ..                                                                                                                                                                                                                                                                                                  . .


                  .:                                                                                                                                                                                                                                                                                                                                                                                                     :                -:’
                                 Pkasc rcf& any questions to H&y L. iavitt at FTS 9872322. - ..-’; ’ ..
 t.‘...; .	... ... 
             . ..       ‘.               -_.                                                                                                                                                                                                                                                                                                                                                                 -.-




 - .                                                                                                                                  .                                                                                                                                                                                                                                                 . -
                                          .

                                                       .                                                . Thomas T. McCloskcy ’ 7                                                     -             :                                                                                                                                                                                      .. . --.. 

 .                  ‘.
                                                      .

                                                                                        ....
                                                                                         .. 
  .                                                                                                                                                                                                                                                                                                                        .*

                                                                -. .                                             - - _.:                                                                                                                                                                                                                                                                                            - ‘, : 

                                                                                                                                                                                                                                                                                                                                                                                                                : ,. 

     ..
        .                        . .:                                -cc ‘L Terry, DRP, HSQS - ‘.-            *_‘.          ‘.. :        . .                                                                                                                                                                                                            .
                                                                  .

      .                                                                                                                                                                                                                                                                                                                                                                                                        -c.. 

                                                             ..      I    Regional Office Program Directors          . . I. * ‘,.   ‘I .                                                                                                                                                                                                           ; ..                -
                                                                                                                                                                                                                                                                                                                                                                                                             :
                                                                                                                                                                                                                                                                                                                                                                                                                .-.I. ‘.... 

                    .
                                                                                                                                                                                                                                                                                                                                                                                      . ,. * .- l”
       :.                            .                      . .
                                                                        ~~PoiicyandOpcra~on~    a -   .  ..,I .:  .’  .;.         .    -                                                                                                                                                                                                                                                                       .: - -

                                                                                                                                                                                                                                                                                                                                                                                                                             :

      ::                           .:                                                                                                                                                                                                                                                                                                                                             .                                   : ..
                                                            . .                                    .
                                                                                                                                          .
                                                                                                                                                                                                                                                                                                                      . . .            .           ‘.         .
                                                                                                                                                                                                                                                                                                                                                                  .: ..: . .. . -

                                                                                                                                                                      .,                          ,.:.                                              .-                                                                                                   -

                                                                                                                                                                                                                                                                                                                                                                             . ..   .. 

           .-   .                                                                . .


                                                                                                                     .   .   .

                                                                                                                                              :                                                                       .        -                                                                                                                                          _

                                                                                                                                                   :

                                                            .              .

                                                                                                                                                       . .
                                                                                                                                                                                                                                                                .

                                                                                                                                                                                                                                                                                                                                                                  . .

                                                                                                                                                                                            -..            . ,.           .                                                                                                                                                                                 .                    :

                                                                                                                                                  .:                       :‘.’            .,                                                                                                                          ..;                  ‘..’
                                                                                                                                                                                                                                                                                                                                                                                              .

                                                                                                                                                                 _-                                                                                                                                                                                                                                             L
                                                                                                                                  f                                                                                                                                                            .
                                                                                                                                                                                                                                                                                                                                  -
                                                                                                                                                                                                                                                                                                                                                                       ..:
                                                                                                                                                                                                    ._ 
                                                                  .   .    .                -* 

                                                                                                                                                                                                                                                                                           .               :t 

                                                                                                                                                                                                                                    ,..   ;.               .’        .

                                                                                                                                                                                                           :-:    *       .                                                                                                            .

                                                                                                                                                                                                                                                                                                                                  .

                                                                                                       .                                                                          .   :


                                                                                                                                                                                                                                                                                                                                                                                      ., .:;                . .

                                                                                                                                                                                                                                                                                                                                                                  : :
                                                                                                                                                             .                                                                      .*
                                                                                               .                                                                                                                                               .         . .                                   -

                                                                                                           -   . .
                                                                                                                                                                                                                          .	   .

                                                                                                                                                                                                                                                                                       _                    “..                                                                         t;:
                                                                                                                                                                                                                                                                                                                  .           -               .** 

                                                                                                                                                                                                                                                                                                                                                                                                                                                .

                                                                                                                                                                                                                                                                                                                                                                                               . .

                                                                                                                                                                                                                                                                                                                                                                             ,
                                                                                                                                                                                                                                                                                                                                                              .    :                               b   .

                                                                                                                                                                                           .


                                                                                                                                                                            .         .                                                                                           .

                                                                                .
                                                                                                                                                                                                                                                                                .

                                                                                                                                                                                           .                                                                                           .-. 

                                                                                                                                                                                                                                                   .

                                                                                                                                                                                                                                                                                                                                                                                                                                               .

                                                                                                           .                                                                                                                                                                                                                                                                                                                 .





                                                                                                                                                                                                                                                                                                                                                                                         .


                                                                                                                                                                                                                      .

                                                                                                                                  .                                                                                                                                                                                                                      .             .

